HHS/OIG, Audit - "Partnership Review -- Oklahoma Health Care Authority's Report on
Hospice Covered Drugs for Dually Eligible Beneficiaries," (A-06-06-00102)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Partnership
Review -- Oklahoma Health Care Authority's Report on Hospice Covered Drugs for
Dually Eligible Beneficiaries," (A-06-06-00102)
February 23, 2007
Complete Text of Report is available in PDF format (378 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This review was conducted in partnership with the Oklahoma Health Care Authority Management and Audit Services Division, an internal audit organization of the Oklahoma Health Care Authority (OHCA). The objective of the review was to determine whether OHCA made inappropriate Medicaid payments to Reavis Super Drug for prescription drugs that Valley Hospice identified as prescriptions that it should cover for dually eligible beneficiaries. During the period January 1 through December 31, 2003, Reavis Super Drug billed Medicaid and received payment for 60 prescription drug claims that Valley Hospice should have paid for because the drugs were related to the beneficiaries’ terminal illness. OHCA recommended that it reimburse the Federal share of the identified overpayments of $3,680 to the Centers for Medicare and Medicaid Services within 60 days of the closure of this review and that Reavis Super Drug (1) reimburse OHCA the $3,680, (2) perform an internal review on amounts billed and Medicaid payments received subsequent to the end of our review period and return any self-identified overpayments to OHCA, and (3) bill the hospice provider for the overpayment amount reimbursed to OHCA.